AUDIT OF THE OFFICE ON VIOLENCE AGAINST WOMEN
GRANTS AWARDED TO FRIENDSHIP HOME OF LINCOLN
            LINCOLN, NEBRASKA




            U.S. Department of Justice
       Office of the Inspector General
                Audit Division


         Audit Report GR-60-10-011
              September 2010
        AUDIT OF THE OFFICE ON VIOLENCE AGAINST WOMEN
        GRANTS AWARDED TO FRIENDSHIP HOME OF LINCOLN
                      LINCOLN, NEBRASKA

                           EXECUTIVE SUMMARY


      The Office of the Inspector General, Audit Division, has completed an
audit of two grants totaling $1,417,165, awarded to the Friendship Home of
Lincoln (Friendship Home) by the Office on Violence Against Women (OVW),
as shown in Exhibit 1.

EXHIBIT 1. GRANTS AWARDED TO FRIENDSHIP HOME BY THE OFFICE ON
           VIOLENCE AGAINST WOMEN
                                   AWARD
                     AWARD START
    GRANT AWARD                     END       AWARD AMOUNT
                        DATE
                                    DATE
   2005-WH-AX-0056          09/01/2005    08/31/2008           $342,165
     Supplement 1           09/01/2008    08/31/2011            475,000

   2008-FW-AX-K009          10/01/2008    09/30/2011            600,000
                                              Total          $1,417,165
Source: Grant Management System

       OVW provides national leadership in developing the nation’s capacity
to reduce violence against women through the implementation of the
Violence Against Women Act. Created in 1995, OVW administers financial
and technical assistance to communities across the country that are
developing programs, policies, and practices aimed at ending domestic
violence, dating violence, sexual assault, and stalking. By forging state,
local, and tribal partnerships among police, prosecutors, victim advocates,
health care providers, faith leaders, and others, OVW grant programs help
provide victims with the protection and services they need to pursue safe
and healthy lives, while simultaneously enabling communities to hold
offenders accountable for their violence.

      Grant Number 2005-WH-AX-0056 is a Transitional Housing Assistance
Program Grant for Victims of Domestic Violence, Dating Violence, Stalking,
or Sexual Assault Program (Transitional Housing Grant) and Grant Number
2008-FW-AX-K009 is an Education, Training, and Enhanced Services to End
Violence Against and Abuse of Women with Disabilities Discretionary Grant
(Disabilities Grant).
       The Transitional Housing Grant Program focuses on a holistic, victim-
centered approach to provide transitional housing services that move
individuals into permanent housing. Grants made under this grant program
support programs that provide assistance to victims of domestic violence,
dating violence, sexual assault, and stalking who are in need of transitional
housing, short-term housing assistance, and related support services.
Transitional housing programs may offer individualized services such as
counseling, support groups, safety planning, and advocacy services as well
as practical services such as licensed child care, employment services,
transportation vouchers, telephones, and referrals to other agencies.

       The goal of the Disabilities Grant Program is to build the capacity of
jurisdictions to address violence against individuals with disabilities through
the creation of multidisciplinary teams. Disabilities Grant Program recipients
will provide training, consultation, and information on domestic violence,
dating violence, stalking, and sexual assault against individuals with
disabilities and enhance direct services to such individuals.

       Friendship Home was founded by the Daughters of Charity and
Catholic Social Services in 1978, as a short-term shelter for women. Its
mission is to support, shelter, and advocate for women and children who are
victims of domestic violence. Currently, this project includes two duplex
units, two apartments, and a house, allowing the agency to provide
transitional shelter for up to 31 women and children every day.

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grants were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grants. The objectives of our audit were to review
performance in the following areas: (1) internal control environment,
(2) drawdowns, (3) grant expenditures, including personnel and indirect
costs, (4) budget management and control, (5) matching, (6) property
management, (7) program income, (8) financial status and progress reports,
(9) grant requirements, (10) program performance and accomplishments,
and (11) monitoring of subgrantees and contractors. We determined that
indirect costs, matching costs, property management, program income,
subgrantees, and contractors were not applicable to these grants.

      As of April 12, 2010, Friendship Home has been reimbursed $747,921
of the $1,417,165 awarded under the two grants covered by our audit. We
examined Friendship Home’s accounting records, financial and progress
reports, and operating policies and procedures and found the following:



                                     - ii –
   •   The expenditure transactions tested were properly authorized, included
       in the approved grant budget, and accurately recorded in the
       accounting records. However, not all transactions tested were
       properly supported or charged to a grant budget category.

   •   Friendship Home did not comply with one of the two training
       requirement special conditions listed in the Transitional Housing Grant
       Supplement 00.

   •   Financial Status Reports (FSRs) were accurate and submitted on time.

   •   Required Categorical Progress Reports (Progress Reports) contained all
       required program performance statistical data and were submitted on
       time.

   •   Grant objectives were being met, along with grant requirements.

   •   Friendship Home’s internal control environment did not reveal any
       significant weaknesses beyond those identified in the single audit.

      Our report contains one recommendation to address the transactions
that were not properly supported, which is discussed in detail in the Findings
and Recommendations section of the report. Our audit objectives, scope,
and methodology are discussed in Appendix I.




                                     - iii –
                                   TABLE OF CONTENTS


INTRODUCTION .................................................................................1
     Background ................................................................................... 2
          Program Background ................................................................ 2
          Friendship Home of Lincoln........................................................ 2
     Our Audit Approach ........................................................................ 3
FINDINGS AND RECOMMENDATIONS.................................................4
     Internal Control Environment .......................................................... 4
          Single Audit............................................................................. 4
          Financial Management System ................................................... 4
     Drawdowns ................................................................................... 4
     Grant Expenditure .......................................................................... 6
          Personnel Costs ....................................................................... 7
     Budget Management and Control ..................................................... 7
     Reports ........................................................................................ 8
     Compliance with Grant Requirements ............................................... 8
     Program Performance and Accomplishments ..................................... 9
          Transitional Housing Grant – 2005-WH-AX-0056 .......................... 9
          Disabilities Grant – 2008-FW-AX-K009 ...................................... 10
     Conclusion .................................................................................. 11
     Recommendations ....................................................................... 12
APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ................13
APPENDIX II - OVW RESPONSE TO THE DRAFT REPORT….…… ........15
APPENDIX III - FRIENDSHIP HOME OF LINCOLN RESPONSE
               TO THE DRAFT REPORT.................................. .........17
   AUDIT OF THE OFFICE ON VIOLENCE AGAINST WOMEN GRANTS
          AWARDED TO FRIENDSHIP HOME OF LINCOLN
                     LINCOLN, NEBRASKA

                              INTRODUCTION


      The Office of the Inspector General, Audit Division, has completed an
audit of Grant Number 2005-WH-AX-0056 and Grant Number 2008-FW-AX-
K009, totaling $1,417,165 awarded to Friendship Home of Lincoln
(Friendship Home) by the Office on Violence Against Women (OVW). Grant
Number 2005-WH-AX-0056 was awarded under the Transitional Housing
Assistance Program Grant for Victims of Domestic Violence, Dating Violence,
Stalking, or Sexual Assault Program (Transitional Housing Grant). Grant
Number 2008-FW-AX-K009 was awarded under the Education, Training and
Enhanced Services to End Violence Against and Abuse of Women with
Disabilities Discretionary Grant Program (Disabilities Grant Program). The
award dates and individual amounts are shown in Exhibit 1.

EXHIBIT 1. GRANTS AWARDED TO FRIENDSHIP HOME BY THE OFFICE ON
           VIOLENCE AGAINST WOMEN
                      AWARD START  AWARD
    GRANT AWARD                               AWARD AMOUNT
                         DATE     END DATE
   2005-WH-AX-0056           09/01/2005   08/31/2008         $342,165
     Supplement 1            09/01/2008   08/31/2011          475,000

   2008-FW-AX-K009           10/01/2008   09/30/2011          600,000
                                              Total       $1,417,165
Source: Grant Management System

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grants were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grants. The objectives of our audit were to review
performance in the following areas: (1) internal control environment,
(2) drawdowns, (3) grant expenditures, including personnel and indirect
costs, (4) budget management and control, (5) matching, (6) property
management, (7) program income, (8) financial status and progress reports,
(9) grant requirements, (10) program performance and accomplishments,
and (11) monitoring of subgrantees and contractors. We determined that
indirect costs, matching costs, property management, program income,
subgrantees, and contractors were not applicable to these grants.
Background

       OVW provides national leadership in developing the nation’s capacity
to reduce violence against women through the implementation of the
Violence Against Women Act. Created in 1995, OVW administers financial
and technical assistance to communities across the country that are
developing programs, policies, and practices aimed at ending domestic
violence, dating violence, sexual assault, and stalking. By forging state,
local, and tribal partnerships among police, prosecutors, victim advocates,
health care providers, faith leaders, and others, OVW grant programs help
provide victims with the protection and services they need to pursue safe
and healthy lives, while simultaneously enabling communities to hold
offenders accountable for their violence.

Program Background

       The Transitional Housing Grant Program focuses on a holistic, victim-
centered approach to provide transitional housing services that move
individuals into permanent housing. Grants awarded under this program
support programs that provide assistance to victims of domestic violence,
dating violence, sexual assault, and stalking who are in need of transitional
housing, short-term housing assistance, and related support services.
Transitional housing programs may offer individualized services such as
counseling, support groups, safety planning, and advocacy services, as well
as practical services such as licensed child care, employment services,
transportation vouchers, telephones, and referrals to other agencies.

       The goal of the Disabilities Grant Program is to build the capacity of
jurisdictions to address violence against individuals with disabilities through
the creation of multidisciplinary teams. Disabilities Grant Program recipients
will provide training, consultation, and information on domestic violence,
dating violence, stalking, and sexual assault against individuals with
disabilities and enhance direct services to such individuals.

Friendship Home of Lincoln

       Friendship Home was founded by the Daughters of Charity and
Catholic Social Services in 1978, as a short-term shelter for women. Its
mission is to support, shelter, and advocate for women and children who are
victims of domestic violence. Currently, this project includes two duplex
units, two apartments, and a house, allowing the agency to provide
transitional shelter for up to 31 women and children every day.




                                       2
Our Audit Approach

      We tested compliance with what we consider to be the most important
conditions of the grants. Unless otherwise stated in our report, the criteria
we audit against are contained in the Office of Justice Programs Financial
Guide and the award documents.

      In conducting our audit, we performed sample testing of grant
expenditures, reviewed the timeliness and accuracy of Financial Status
Reports (FSRs) and progress reports, evaluated performance to grant
objectives, and reviewed the internal controls of the financial management
system.

      As of April 12, 2010, Friendship Home has been reimbursed $747,921
of the $1,417,165 awarded under the two grants covered by our audit. We
examined Friendship Home’s accounting records, financial and progress
reports, and operating policies and procedures, and found the following:

  •   The expenditure transactions tested were properly authorized, included
      in the approved grant budget, and accurately recorded in the
      accounting records. However, not all transactions tested were
      properly supported or charged to a grant budget category.

  •   Friendship Home did not comply with one of the two training
      requirement special conditions listed in the Transitional Housing Grant
      Supplement 00.

  •   FSRs were accurate and submitted on time.

  •   Required Categorical Progress Reports (Progress Reports) contained all
      required program performance statistical data and were submitted on
      time.

  •   Grant objectives were being met, along with grant requirements.

  •   Friendship Home’s internal control environment did not reveal any
      significant weaknesses beyond those identified in the single audit.

     These items are discussed in detail in the Findings and
Recommendations section of the report. Our audit objectives, scope, and
methodology are discussed in Appendix I.




                                      3
                  FINDINGS AND RECOMMENDATIONS

     We found that FSRs and Progress Reports were accurate and
     timely and grant objectives were being met, along with grant
     requirements. However, we found that 9 of the 50 transactions
     in our Transitional Housing sample did not have an invoice, only
     a purchase order, and the same 9 transactions were not properly
     charged to a grant budget category. We also found one of the
     special conditions of the Transitional Housing Grant was not met.

Internal Control Environment

      We reviewed Friendship Home’s financial management system and
Single Audit Report and interviewed Friendship Home officials to assess
Friendship Home’s risk of non-compliance to laws, regulations, guidelines,
and terms and conditions of the grants.

Single Audit

       According to Office of Management and Budget (OMB) Circular A-133,
Friendship Home is required to perform a single audit. The most recent
single audit was obtained, and it contained a financial statement finding
related to segregation of duties. Specifically, due to the limited number of
personnel involved in the accounting function, Friendship Home of Lincoln
has limited internal control procedures. During our review of the financial
management system internal controls, we interviewed Friendship Home
officials and asked about their internal control environment and did not
identify any additional concerns or weaknesses.

Financial Management System

      Our review of Friendship Home’s financial management system
indicated their operating procedures were documented and adequate. We
did not detect any transactions that were not at arm’s length, and Friendship
Home had procedures for verification of invoices, payment of invoices, and
payment of employees.

Drawdowns

      Grant officials stated that drawdowns were based on reimbursements.
We reviewed the accounting records and compared expenditures to the
actual drawdowns for both the Transitional Housing Grant and the
Disabilities Grant. For the Transitional Housing Grant (Exhibit 2), we found
that the drawdowns matched the expenditures, with the exception of the


                                      4
March 9, 2006, and July 12, 2006, drawdowns. For the Disabilities Grant
(Exhibit 3) the drawdowns matched the expenditures except in the
January 9, 2010, drawdown.

EXHIBIT 2.     DRAWDOWNS VERSUS ACCOUNTING RECORDS
               TRANSITIONAL HOUSING GRANT 1
     DATE OF          AMOUNT       GRANT EXPENDITURES PER        DIFFERENCE
  DRAWDOWN PER       DRAWN PER       ACCOUNTING RECORDS      BETWEEN DRAWDOWN
      OJP               OJP         FOR DRAWDOWN PERIOD       AND EXPENDITURES

       03/09/2006   $     28,383    $              23,683    $           (4,700)
       05/18/2006         23,682                    23,682           -
       07/12/2006         23,299                    23,313                  14
       10/18/2006         27,078                    27,078           -
       01/16/2007         30,374                    30,374           -
       04/13/2007         28,519                    28,519           -
       07/10/2007         26,764                    26,764           -
       10/11/2007         20,861                    20,861           -
       01/17/2008         26,872                    26,872           -
       04/14/2008         22,168                    22,168           -
       07/09/2008         21,505                    21,505           -
       10/14/2008         21,706                    21,706           -
       02/05/2009         29,745                    29,745           -
       04/16/2009         38,997                    38,997           -
       07/13/2009         40,440                    40,440           -
       10/13/2009         40,748                    40,748           -
       01/19/2010         37,255                    37,255           -
       04/12/2010         43,989                    43,989           -
Source: Office of Justice Programs and Friendship Home of Lincoln

      According to Friendship Home officials, the $4,700 difference from the
March 9, 2006, drawdown was for equipment and the drawdown amount
was based on the amount allowed in the budget, not the actual invoice
amount. When the equipment was actually purchased, the total amount of
the purchase was for $4,686, so Friendship Home decreased the drawdown
amount of the July 12, 2006, drawdown by the $14 difference. No costs are
being questioned since the equipment purchased is an allowable expense in
the budget.

       1
        Differences in total amounts are due to rounding, e.g., the sum of individual
numbers prior to rounding may differ from the sum of the individual numbers rounded.


                                             5
EXHIBIT 3.     DRAWDOWNS VERSUS ACCOUNTING RECORDS
               DISABILITIES GRANT 2
     DATE OF          AMOUNT       GRANT EXPENDITURES PER        DIFFERENCE
  DRAWDOWN PER       DRAWN PER       ACCOUNTING RECORDS      BETWEEN DRAWDOWN
      OJP               OJP         FOR DRAWDOWN PERIOD       AND EXPENDITURES

       06/01/2009   $     42,621    $               42,621   $       -

       07/13/2009         41,241                    41,241           -

       10/13/2009         54,989                    54,989           -

       01/19/2010         40,026                    38,764               (1,261)

       04/12/2010         36,660                    36,660           -
Source: Office of Justice Programs and Friendship Home of Lincoln

      According to Friendship Home officials, the $1,261 was used to
purchase computer equipment. The equipment was purchased from the
Friendship Home building fund in the amount of $1,261 and is an allowable
expense in the budget. As a result, no costs are being questioned.

Grant Expenditure

      We reviewed the general ledger accounts designated for grant funds
and found that for the Transitional Housing Grant there were a total of 728
transactions. We sampled 50 grant-funded transactions totaling $60,218
and found that 9 of the 50 transactions in our sample did not have an
invoice, only a purchase order.

      We reviewed the general ledger accounts designated for grant funds
and found there were a total of 103 transactions for the Disabilities Grant.
We sampled 25 grant-funded transactions totaling $43,570 and found that 1
of the 25 transactions did not have the proper authorization and lacked the
required support; there was only a purchase order.

       We are recommending that Friendship Home of Lincoln implement
policies and procedures requiring staff to obtain and keep proper accounting
records.




       2
        Differences in total amounts are due to rounding, e.g., the sum of individual
numbers prior to rounding may differ from the sum of the individual numbers rounded.


                                             6
Personnel Costs

      We performed payroll testing to verify the reasonableness, accuracy,
and completeness of salary and fringe benefit transactions charged to the
grants. We judgmentally selected two nonconsecutive pay periods during
the grant period and reviewed the payroll documentation for employees paid
during those periods. We found the salaries and fringe benefits charged to
the grants to be reasonable, accurate, and complete.

       We also compared the list of Friendship Home employees paid with
grant funds with positions approved in the grant budgets and found that all
positions were included in the approved budgets.

Budget Management and Control

      According to the OJP Financial Guide, a grantee may transfer funds
between approved budget categories without OJP approval if the total
transfers are 10 percent or less than the award amount. We compared the
amounts charged to each budget category per the accounting records to the
OVW approved budget. Generally, we found that all budget management
and controls were within the amounts allowable by OJP.

      During our testing of Transitional Housing Grant-funded transactions,
we identified 9 transactions from our sample of 50 that were not properly
charged to a grant budget category. The nine transactions were for direct
assistance and, according to the budget narratives, $9,600 was approved for
direct assistance for 4 years. Friendship Home had expensed $30,654 to
direct assistance and, as a result, exceeded its budget category by
$21,054.3 These costs are not being questioned because they fall within the
10 percent rule.

       During our testing of the Disabilities Grant-funded transactions, we
identified 3 transactions from our sample of 25 that were improperly
charged to a grant budget category. The three transactions were for
advertisements to fill the Disabilities Grant Project Coordinator position.
The budget specifically said one advertisement at $520. The total expenses
charged to the grant for the advertisements placed were $4,537. As a
result, Friendship Home of Lincoln exceeded the budget category by $4,071.
We are not questioning the $4,071 because it falls within the 10 percent
rule.


       3
         Year two of Supplement 01 ends on August 31, 2010, so our calculations for that
year are as of April 26, 2010, the date the general ledger detail was run. As of April 26,
2010, Friendship Home was already over budget for the direct assistance.


                                              7
Reports

      We reviewed the last four quarters of FSRs and found that they were
timely and accurate. We also reviewed Friendship Home’s Progress Reports
from the last 2 years and determined they were timely and that the grantee
accurately completed the Progress Reports by including a comparison of
actual accomplishments to the objectives established for the period.

Compliance with Grant Requirements

       To determine if Friendship Home was in compliance with the special
conditions of the grants, we reviewed the award documentation and
identified the special conditions placed on the grantee. We interviewed
Friendship Home officials regarding the special conditions identified in the
award documentation and determined they were in compliance with all
special conditions except one.

      Special Condition Number 19 from Supplement 00 of the Transitional
Housing grant stated that “…all grantees must attend and participate in a
minimum of three OVW sponsored trainings per year… .” Friendship Home
attended two OVW-sponsored trainings during year one, three during year
two, and during year three they registered for one, but were unable to
attend the training due to weather and flight cancellations.

       Upon discussing the situation with Friendship Home officials, we
learned that attending three trainings per year was difficult for a small
organization. After they discussed the situation with OVW project managers
and other grantees at an orientation training the special condition was
changed in Supplement 01 to require grantees to attend and participate in a
minimum of three OVW-sponsored trainings during the course of the
36-month project period. While Friendship Home did not comply with
training requirements in Special Condition Number 19 of Supplement 00, we
do not make a recommendation because the problem was rectified in
Supplement 01, Special Condition Number 25.




                                       8
Program Performance and Accomplishments

Transitional Housing Grant – 2005-WH-AX-0056

      According to the Supplement 00 award documentation, the objectives
of the Transitional Housing grant are as follows:

   (1)   Sustain 31 transitional shelter beds provided to battered women
         and their children each day.

   (2)   Provide enhanced Strengths-Based Case Management services to
         women and children in transitional shelter.

   (3)   Provide proactive post-shelter supportive services to women, using
         the Strengths-Based Case Management services model.

       According to Supplement 01 award documentation, the Transitional
Housing Grant goals are to help battered women and their children receive
the transitional housing and supportive services they need from Friendship
Home as they work towards permanent housing and self-sufficiency apart
from their batterers. More specifically, the budget narrative stated that it
will focus on four objectives:

   (1)   Maintain current inventory of 6 transitional housing units (31 beds
         total), while adding a seventh, 6-bed transitional housing unit.

   (2)   Provide case management and advocacy services to women using
         Friendship Home’s Strengths-Based Interventions model.

   (3)   Provide advocacy services to children using Friendship Home’s
         Strengths-Based Interventions model.

   (4)   Provide at least 3 months of proactive, post-transitional housing
         follow-up services to women after they have secured permanent
         housing, using Friendship Home’s Strengths-Based Interventions
         model.

      To evaluate the program performance and accomplishments of the
Transitional Housing Grant, we interviewed Friendship Home officials,
surveyed collaborative partners, attended a group session, and visited one
of the transitional housing units.

      According to Friendship Home officials, one method utilized to measure
performance of the Transitional Housing Grant is adherence to the grant


                                      9
documentation. In addition, statistical data is gathered and maintained by
Friendship Home. Specifically, data is gathered by the women’s advocates
on a daily basis and used to generate service statistics reports. This
information is used to complete Progress Reports. The completion of
Progress Reports is another method for measuring the grant performance.

      To obtain feedback from individuals benefiting from the Transitional
Housing Grant, we attended an economic self-sufficiency group meeting
called SEEDS, Self Economic Empowerment – Drawing on our Strengths. At
that meeting we asked the six female attendees questions regarding the
Transitional Housing Grant Program. The women who participated in the
meeting stated that they were informed about the Transitional Housing
Program by counselors and child advocates.

      In addition, the attendees stated that Friendship Home provided
assistance with training, transportation, and food. One of the women stated
that she was going to be taking college classes and Friendship Home was
helping her with her tuition, as well as child care. Women also stated that
Friendship Home was paying for the transportation to and from the group
meetings, since many of the women do not drive and the public
transportation system in Lincoln does not operate after a certain hour of the
day. Friendship Home also provides initial supplies for the transitional units.
We also visited one of the Transitional Housing Units, a three bedroom unit
rented to Friendship Home by Eastridge Presbyterian Church.

      Finally, we contacted Friendship Home’s nine Transitional Housing
Collaborative Partners and asked them to provide feedback on the program
by completing a questionnaire. Based on the six out of nine responses
received, we determined that the program was providing transitional housing
and supportive services to women and their children who have been in
emergency shelter and were ready to move on to independent living. Some
of the support services provided by the program include counseling, job
readiness skill development, nutrition education, and financial support.

Disabilities Grant – 2008-FW-AX-K009

      According to the award documentation, the goals of the Disabilities
Grant are to: (1) create a rapid, client-focused, holistic service response
and (2) enhance case management.

      To evaluate the program performance and accomplishments of the
Disabilities Grant, we interviewed Friendship Home officials and surveyed
collaborative partners.



                                      10
      According to Friendship Home officials, there were no quantifiable
methods that seemed usable for this particular program. Grant officials
went on to say they were ensuring all products in the planning and
development phase were completed in a timely manner, so that the
implementation phase can begin in February 2011. Friendship Home cannot
move on to the next phase of the program if they have not completed the
requirements of the previous phase.

      Finally, we contacted Friendship Home’s five Disabilities Grant
Collaborative Partners and asked them to provide feedback on the program
by completing a questionnaire. Based on the two out of five responses
received, we determined that the partner agencies have created the Open
Door Initiative, written a collaboration charter, and have written and
submitted a needs assessment plan. In addition, the Disabilities Grant
Program has improved communication between partner agencies. We also
determined that collaboration between Friendship Home and its collaborative
partners was very beneficial to planning better and more comprehensive
services for its clients.

Conclusion

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grants were allowable, supported and in
accordance with applicable laws, regulations, guidelines, terms and
conditions of the grants, and to determine program performance and
accomplishments.

       We determined that FSRs and Progress Reports were submitted on
time and were accurate. One special condition of Supplement 00 was not
complied with, but no recommendation is made because the problem was
rectified in Supplement 01, Special Condition Number 25. We evaluated the
program performance and accomplishments of both grant programs and
determined both are on track to meet the objectives of the programs.

      We found expenditure transactions tested were properly authorized,
included in the approved grant budget, and accurately recorded in the
accounting records. However, not all transactions tested were properly
supported or charged to a grant budget category. No costs are questioned
because according to the OJP Financial Guide, a grantee may transfer funds
between approved budget categories without OJP approval if the total
transfers are 10 percent or less than the award amount. The following
recommendation is made to address the missing support identified during
transaction testing.



                                    11
Recommendations

     We recommend that the OVW:

1.   Ensure that Friendship Home implement policies and procedures
     requiring staff to obtain and keep proper accounting records to
     address the missing support identified during the transaction testing of
     both grants.

     We provided copies of the draft audit report to Friendship Home of
     Lincoln and the Office on Violence Against Women and requested
     written comments. Friendship Home of Lincoln officials provided us
     an e-mail correspondence on September 1, 2010, including a copy
     of their revised financial policies and procedures.

     The Office on Violence Against Women also provided us an e-mail
     correspondence on September 17, 2010, requesting the
     recommendation be closed, as Friendship Home of Lincoln had
     revised their financial policies and procedures. As a result, we
     consider Recommendation Number 1 and the overall report status
     closed.




                                    12
                                                                APPENDIX I


               OBJECTIVES, SCOPE, AND METHODOLOGY


      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grants were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grants. The objectives of our audit were to review
performance in the following areas: (1) internal control environment,
(2) drawdowns, (3) grant expenditures, including personnel and indirect
costs, (4) budget management and control, (5) matching, (6) property
management, (7) program income, (8) financial status and progress
reports, (9) grant requirements, (10) program performance and
accomplishments, and (11) monitoring of subgrantees and contractors.
We determined that indirect costs, matching costs, property management,
program income, subgrantees, and contractors were not applicable to
these grants.

       We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives. Our audit concentrated on, but was not limited to, the award
of the initial Transitional Housing grant on September 01, 2005, through
April 12, 2010, the most recent drawdown date for both grants.

      We tested compliance with what we consider to be the most important
conditions of the grants. Unless otherwise stated in our report, the criteria
we audit against are contained in the Office of Justice Programs Financial
Guide and the award documents.

       In conducting our audit, we performed sample testing for grant
expenditures. In this effort, we employed a judgmental sampling design to
obtain broad exposure to numerous facets of the grants reviewed, such as
dollar amounts or expenditure category. We selected a sample of 50 grant
expenditures for the Transitional Housing Grant and 25 grant expenditures
for the Disabilities Grant. This nonstatistical sample design does not allow
projection of the test results to the universes from which the samples were
selected.

      In addition, we reviewed the timeliness and accuracy of FSRs and
Progress Reports and evaluated performance to grant objectives; however,



                                     13
                                                                APPENDIX I


we did not test the reliability of the financial management system as a
whole.




                                     14
                                                                             APPENDIX II


                    OVW RESPONSE TO THE DRAFT REPORT


                                                                            September 13, 2010


MEMORANDUM


TO:                   David Sheeren
                      Regional Audit Manager
                      Denver Regional Audit Office



FROM:                 Susan B. Carbon
                      Director
                      Office on Violence Against Women



                      Rodney Samuels
                      Audit Liaison
                      Office on Violence Against Women


SUBJECT:              Response to the Draft Audit Report – Office on Violence Against
                      Women Grants to the Friendship Home of Lincoln, Lincoln, Nebraska

This memorandum is in response to your correspondence dated August 12, 2010 transmitting
the above draft audit report for the Friendship Home of Lincoln. OVW is requesting closure of
the referenced audit. The Friendship Home of Lincoln has submitted the necessary
documentation to support the recommendation listed in the referenced Draft Report.

The report contains one recommendation and no unsupported questioned costs. The following
is an analysis of the audit recommendation:


   1) Ensure that Friendship Home implement policies and procedures requiring staff to
      obtain and keep proper accounting records to address the missing support identified
      during the transaction testing of both grants.

       The Friendship Home of Lincoln has submitted the updated policies and procedures to
       ensure that staff is required to obtain and keep proper accounting records to address
       the missing support identified during the transaction testing of both grants
        (See section II of attachment).


                                              15
                                                                           APPENDIX II

We appreciate the opportunity to review and comment on the draft report. The Friendship
Home of Lincoln was diligent in addressing the recommendation and provided the support in a
timely manner. If you have any questions or require additional information, please contact
Rodney Samuels of my staff at
(202) 514-9820.

cc:    Richard Theis
       Assistance Director
       Audit Liaison Group
       Justice Management Division

       Kotora Padgett
       Accounting Officer
       Office on Violence Against Women

       Amy Evans
       Executive Director
       Friendship Home

       Amila Tanovis-Muslic
       Finance Director
       Friendship Home

       Amy Loder
       Program Specialist
       Office on Violence Against Women

       Paule Tessier
       Program Specialist
       Office on Violence Against Women




                                             16
                                                                                             APPENDIX III


 FRIENDSHIP HOME OF LINCOLN RESPONSE TO THE DRAFT REPORT


August 31, 2010

David M. Sheeren
Regional Audit Manager
U.S. Department of Justice
Office of the Inspector General
Denver Regional Audit Office1120 Lincoln, Suite 1500
Denver, Colorado 80203

Dear Mr. Sheeren:

I am writing in response to the Draft Audit Report letter issued August 12, 2010 regarding the audit of two
Office on Violence Against Women grants awarded to Friendship Home of Lincoln.

The Draft Report contains one recommendation: that Friendship Home implement policies and procedures
requiring staff to obtain and keep proper accounting records to address the missing support identified during
the transaction testing of both grants. We have revised our financial policies and procedures accordingly and
the Board of Directors has approved this revision. The addition to the policies and procedures is as follows:

         All expenditure transactions shall be properly supported by required documentation (invoice,
         statement, purchase order, receipt for petty cash purchases and internally created petty cash or cab
         slip signed by staff member and recipient). Purchase order and vendor invoice or statement shall be
         obtained prior to the check being cut and attached to the payment stub. Purchase orders shall be
         signed by requesting staff member and approved by signature from their supervisor before payment
         to vendor is made. Direct assistance to clients in form of payment for housing deposit or first
         month's rent shall be supported by signed letter from the landlord stating his/her acceptance of
         renter's application and amount of rent or deposit. Page 4-5 (II L) of our attachment: FH Financial
         Policies and Procedures

In May, our auditors brought to our attention that a purchase order is not adequate support in some instances
when our agency is providing direct aid to clients. We immediately instituted an additional requirement for
documentation of direct aid in the form of first month's rent or deposit. Please find attached Landlord
Letter.

Please contact me at (402) 434-0161 if you have any questions.

Sincerely,


/s/
Amy Evans
Executive Director

cc: Amy Loder, Program Specialist OVW
    Paule Tessier, Program Specialist OVW
    Jennifer Maddock, Auditor OIG
    Amila Tanovic-Muslic, Finance Director FH




                                                        17
